            U.S. Department of
                                                    Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   INFORMATION: Notification of Audit of FAA’s                   Date:    August 17, 2004
           Initiatives To Address Air Traffic Controller
           Staffing
           Project No. 04A3015A000

  From:                                                               Reply to    JA-10
           David A. Dobbs                                             Attn. of:
           Assistant Inspector General
            for Aviation Audits

    To:    Ramesh Punwani
           Assistant Administrator
            for Financial Services/CFO, ABA-1

           For years, various groups have repeatedly expressed concern that some FAA air
           traffic control facilities are either under- or over-staffed. However, determining the
           extent of those imbalances is problematic because staffing is affected by a number
           of factors including workforce productivity, leave usage, work rules, training, and
           scheduling. FAA’s success at achieving a balanced workforce will largely depend
           on actions it takes to address these issues over the next several years.

           Addressing staffing issues within the controller workforce expediently is
           particularly critical as FAA is facing attrition of nearly half its controller workforce
           between fiscal years 2005 and 2012. While this represents a significant challenge
           for FAA, it also represents an opportunity to address a myriad of long-standing
           concerns as the workforce turns over.

           The Office of Inspector General plans to begin an audit of FAA’s initiatives to
           address air traffic controller staffing. The objective of our audit is to evaluate
           actions taken and/or planned by FAA to address key staffing issues within the
           controller workforce to ensure the safe, efficient, and cost-effective operation of the
           National Airspace System in light of expected increases in controller attrition.
                                                                             2

We plan to begin the audit the week of September 7, 2004. We will contact FAA’s
audit liaison to arrange a formal entrance conference. Ms. Susan Bader is the
Project Manager for this audit. If you have any questions or need additional
information, please contact her at (202) 366-1989, or Dan Raville, Program
Director, at (202) 366-1405.

CC: Federal Aviation Administrator, AOA-1
    FAA Deputy Administrator, ADA-1
    FAA Chief of Staff, AOA-2
    FAA Chief Operating Officer, ATO-1
    FAA Audit Liaison, ABU-100
    OST Audit Liaison, M-1

                                       #
